Audit of USAID/Guatemala-Central American
Programs’ Cooperative Agreement with Caribbean-
Central American Action (Cooperative Agreement
No. 596-A-00-04-00235-00)
Audit Report Number 9-596-05-003-P
February 7, 2005




                   Washington, D.C.
February 7, 2005


MEMORANDUM
FOR:           USAID/G-CAP Director, Glenn Anders

FROM:          IG/A/PA, Nathan S. Lokos /s/

SUBJECT:       Report on Audit of USAID/Guatemala-Central American Programs’
               Cooperative Agreement with Caribbean-Central American Action
               (Cooperative Agreement No. 596-A-00-04-00235-00)
               (Report No. 9-596-05-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the report,
we considered your comments on our draft report and have included your responses as
Appendix II.

This report includes one recommendation to address a lobbying issue raised by the
wording in the Declaration of Principles mentioned in the cooperative agreement. In your
written comments, you concurred with the recommendation and have identified actions to
address our concerns. Therefore, we consider that a management decision has been
reached and that final action is pending on the recommendation. Information related to
your final action should be provided to USAID’s Office of Management Planning and
Innovation.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during the audit.
[This page intentionally left blank.]




                                        2
Table of   Summary of Results..................................................................... 5
Contents
           Background .................................................................................. 6

           Audit Objectives .......................................................................... 7

           Audit Findings ............................................................................. 8

                     Did USAID/G-CAP comply with Section 533
                     restrictions of the Foreign Operations provisions of
                     Public Law 108-199 and Automated Directives
                     System Section 225 in the award of its cooperative
                     agreement to Caribbean-Central American Action?........ 8

                     Did USAID/G-CAP's cooperative agreement with
                     Caribbean-Central American Action comply with
                     selected Federal Appropriations Law provisions as
                     they apply to obligating appropriated funds?................. 10

                     Did USAID/G-CAP's cooperative agreement with
                     Caribbean-Central American Action comply with
                     Federal and USAID lobbying restrictions?.................... 12

                                Language Does Not Comply
                                With Lobbying Restrictions............................... 12

           Management Comments and our Evaluation............................. 14

           Appendix I-Scope and Methodology ......................................... 15

           Appendix II-Management Comments........................................ 17




                                                                                                             3
[This page intentionally left blank.]




                                        4
Summary of   The U.S.-Central America Free Trade Agreement (CAFTA) was
Results      signed by the United States and several Central American
             countries on May 28, 2004. Enacting the agreement requires that
             the U.S. Congress pass implementing legislation and that similar
             action be undertaken in the other countries. CAFTA was
             negotiated, in part, as a regional agreement in which all parties
             would be subject to the “same set of obligations and
             commitments.”       As a comprehensive and reciprocal trade
             agreement, CAFTA defines detailed rules that would govern
             market access of goods and services. (See page 6.)

             This audit is a result of a request from Congress asking for a review
             and independent assessment of a cooperative agreement to
             Caribbean-Central American Action (CCAA) providing initial
             funding for the Alliance for CAFTAction. (See page 7.)

             In responding to this request, the Performance Audits Division of
             the Office of Inspector General conducted this audit to determine
             whether (1) USAID/Guatemala-Central American Programs
             (USAID/G-CAP) complied with Section 533 restrictions of the
             Foreign Operations provisions of Public Law 108-199 and
             Automated Directives System 225 in the award of its cooperative
             agreement to CCAA, (2) the cooperative agreement with CCAA
             complied with selected Federal Appropriations Law provisions as
             they apply to obligating appropriated funds, and (3) the cooperative
             agreement with CCAA complied with Federal and USAID
             lobbying restrictions. (See page 7.)

             The audit concluded that USAID/G-CAP complied with Section
             533 restrictions of the Foreign Operations provisions of Public Law
             108-199 and Automated Directives System 225 in the award of its
             cooperative agreement to CCAA. Similarly, the audit concluded
             that the cooperative agreement to CCAA complied with selected
             Federal Appropriations Law provisions as they apply to obligating
             appropriated funds. (See pages 8 and 10.)

             Finally, the audit determined that the cooperative agreement to
             CCAA did not initially fully comply with Federal and USAID
             lobbying restrictions. The agreement program description called
             for business and civil society leaders to sign the “Declaration of
             Principles” which—among other things—asked for business
             partners, friends and families in the United States to support efforts
             to ratify the Central American Free Trade Agreement. This activity
             could be considered an attempt to influence the enactment of
             pending U.S. Federal legislation, which is not allowed under


                                                                                5
             Federal lobbying restrictions. However, after we made contact with
             USAID/G-CAP, CCAA made two revisions to the Declaration of
             Principles, the last of which deleted all references to working for
             the ratification of CAFTA. We recommended that the Mission
             require CCAA to use the most recent Declaration of Principles,
             which omits any reference to either ratification of CAFTA or the
             United States. (See pages 12 and 13.)

             Management concurred with the recommendation and described
             actions taken to remove all references to “involving U.S. friends” or
             “asking for help in the ratification of CAFTA” from the Declaration
             of Principles. Management also described additional monitoring of
             the cooperative agreement with CCAA that it intends to perform.
             (See page 14.)


Background   The U.S.-Central America Free Trade Agreement (CAFTA) was
             signed by the United States Trade Representative and several
             Central American countries on May 28, 2004. Enacting the
             agreement requires that the U.S. Congress pass implementing
             legislation and that similar action be taken in the other countries.
             CAFTA was negotiated, in part, as a regional agreement in which
             all parties would be subject to the “same set of obligations and
             commitments,” but with each country defining separate schedules
             for market access on a bilateral basis. As a comprehensive and
             reciprocal trade agreement, CAFTA defines detailed rules that
             would govern market access of goods, as well as services trade,
             government procurement, intellectual property, and investment.

             Under CAFTA, more than 80 percent of U.S. consumer and
             industrial exports and over half of U.S. farm exports would become
             duty-free immediately. To address asymmetrical development and
             transition issues, CAFTA specifies rules for tariff phase-out
             schedules as well as transitional safeguards and tariff rate quotas for
             sensitive goods. Although many goods would attain immediate
             duty-free treatment, others would have tariffs phased out
             incrementally so that duty-free treatment is reached in 5, 10, 15, or
             20 years from the time the agreement takes effect.

             On September 30, 2004, USAID/Guatemala-Central American
             Programs (USAID/G-CAP) awarded a cooperative agreement to
             Caribbean-Central American Action (CCAA), a private,
             independent, non-profit organization headquartered in Washington,
             D.C.1 The organization is governed by an international Board of

             1
              USAID/G-CAP awarded Cooperative Agreement No. 596-A-00-04-00235-00 for the
             Alliance for CAFTAction. The document was incrementally funded for 10 months of the


                                                                                              6
             Trustees and funded primarily by contributions from companies
             with a direct or indirect stake in the region’s prosperity. CCAA
             describes its activities as those of promoting private sector-led
             economic development in the Caribbean basin and throughout the
             hemisphere, in order to serve its goal of facilitating trade and
             investment to improve the policy and regulatory environments for
             business on both the international and local levels.

             This audit resulted from a Congressional request asking for a
             review and independent assessment of USAID/G-CAP’s
             cooperative agreement providing initial funding for the Alliance for
             CAFTAction. Congress’ concern was that activities under the
             agreement associated with CAFTA might not be consistent with
             Section 533 of the Foreign Operations provisions of the relevant
             Appropriation Act (Public Law 108-199), which prohibits funding
             of incentives with the purpose of inducing businesses to relocate
             outside the United States—if the likely result would be the loss of
             U.S. jobs. The request asked that the Office of Inspector General
             ascertain whether the agreement is in compliance with Section 533
             of the Appropriations Act and whether USAID internal guidance.


Audit        This audit was requested by Congress and was conducted to
Objectives   answer the following questions:

             Did USAID/Guatemala-Central American Programs comply
             with Section 533 restrictions of the Foreign Operations
             provisions of Public Law 108-199 and Automated Directives
             System 225 in the award of its cooperative agreement to
             Caribbean-Central American Action?

             Did     USAID/Guatemala-Central         American     Programs’
             cooperative agreement with Caribbean-Central American
             Action comply with selected Federal Appropriations Law
             provisions as they apply to obligating appropriated funds?

             Did    USAID/Guatemala-Central      American     Programs’
             cooperative agreement with Caribbean-Central American
             Action comply with Federal and USAID lobbying restrictions?

             Appendix I contains a discussion of the audits scope and
             methodology.



             planned 2 year scope of work with an obligation totaling $300,000 out of a planned
             budget of $700,000. As a Global Development Alliance, the agreement is expected to
             leverage an additional $1,400,000 of funds from participating alliance partners.


                                                                                                  7
Audit      Did USAID/Guatemala-Central American Programs comply
Findings   with Section 533 restrictions of the Foreign Operations
           provisions of Public Law 108-199 and Automated Directives
           System 225 in the award of its cooperative agreement to
           Caribbean-Central American Action?

           USAID/G-CAP did comply with Section 533 restrictions of the
           Foreign Operations provisions of Public Law (P.L.) 108-199
           (Section 533) and Automated Directives System (ADS) 225 in the
           award of its cooperative agreement to Caribbean-Central American
           Action (CCAA). The cooperative agreement’s activities fall under
           the category of permitted activities, which are activities that, even
           though they have a trade and investment orientation, by their
           nature are too indirectly linked to any potential location or are not
           consciously directed at inducing a business to relocate. There were
           no activities that appeared to be designed to directly induce U.S.
           businesses to either relocate abroad or to relocate jobs abroad.
           Moreover, there were no activities—such as establishing
           investment promotion offices or funding media advertising in the
           U.S. directed at investment promotion—that would likely evolve
           into activities prohibited by the ADS.

           Section 533 states that none of the funds appropriated under the
           Act (P.L. 108-199) may be obligated or expended to provide any
           financial incentive to a business enterprise currently located in the
           U.S. for the purpose of inducing such an enterprise to relocate
           outside of the U.S. if such incentive or inducement is likely to
           reduce the number of employees because U.S. production is being
           replaced by production overseas. Similarly, ADS Section 225
           establishes the policies and procedures to implement Section 533
           of the Act. It contains program design and implementation
           procedures to ensure that USAID-funded “trade and investment”
           activities do not provide financial incentives and other assistance
           for U.S. companies to relocate abroad if it is likely to result in the
           loss of U.S. jobs.

           ADS 225 classifies “trade and investment” activities into three
           categories containing illustrative examples. These areas are
           “permitted,” “prohibited,” and “gray-area.” Permitted activities
           are those that, by their nature, would be too indirectly linked to any
           potential relocation of U.S. businesses or are not consciously
           directed at inducing U.S. businesses to relocate. Prohibited
           activities are those that represent too high a risk of being directly
           linked to a potential relocation. The gray-area activities are those
           requiring further review and consideration in the design process to


                                                                               8
determine the likely impacts on jobs and relocation. USAID/G-
CAP officials stated that, in their review of the proposal for the
cooperative agreement, they concluded that all of the activities
contemplated under the agreement were permitted activities, as
defined in ADS 225.

We examined the activities included in the cooperative agreement,
CCAA’s annual work plan and the monitoring and evaluation plan
to determine whether the activities therein were directed at
promoting foreign investment or could reasonably be foreseen to
stimulate the relocation of any U.S. business that would result in a
reduction in the number of employees of the business in the U.S.
We also discussed these issues with USAID/Washington and
USAID/G-CAP staff.

The specific activities associated with the agreement fell into the
following categories:

    •   Creating a network of business and civil society leaders in
        Central America to implement CAFTA.

    •   Bringing together key leaders in each Central American
        country to promote CAFTA.

    •   Working with private sector organizations in Central
        America to provide training for employees of member
        companies on the benefits of CAFTA’s implementation.

    •   Working with other Central American business
        organizations to define “best business practices” and
        develop public/private partnerships that will help
        businesses implement these practices.

We determined that the agreement’s activities fell under the
category of permitted activities, and found no activities that could
be considered prohibited or gray-area activities, as defined by ADS
225. Nor did we find any activities that appeared to be designed to
directly induce U.S. businesses to either relocate abroad or to
relocate jobs abroad. Consequently, we concluded that the
cooperative agreement did not violate either Section 533 or ADS
225.2

2
 Even though Mission staff considered the activities under the agreement to be
permitted activities, they took the additional step of including a clause
addressing “Investment Promotion” in the cooperative agreement. This clause
prohibits the use of agreement funds for investment promotion unless specified
in the cooperative agreement or authorized by USAID in writing.


                                                                                 9
Did     USAID/Guatemala-Central         American     Programs’
cooperative agreement with Caribbean-Central American
Action comply with selected Federal Appropriations Law
provisions as they apply to obligating appropriated funds?

USAID/G-CAP’s cooperative agreement to Caribbean-Central
American Action did comply with selected Federal Appropriations
Law provisions as they apply to obligating appropriated funds.
The funding document was an authorized cooperative agreement in
which the anticipated results are intended to benefit a third party.
Additionally, the funds obligated under the agreement met the
required elements necessary for legal availability.

The Federal Grant and Cooperative Agreement Act of 1977 (31
USC 6301 to 6308) defines a procurement contract as a funding
vehicle to be used when “the principle purpose of the instrument is
to acquire property or services for the direct benefit or use of the
United States Government.” Alternatively, grants and cooperative
agreements are to be used when “the principal purpose of the
relationship is to transfer a thing of value [money, property,
services, etc.] to the …recipient to carry out a public purpose of
support or stimulation authorized by a law of the United States
instead of acquiring …property or services for the direct benefit or
use of the United States Government.”

Key elements in determining whether an appropriation has been
used within its “legal availability” in funding a cooperative
agreement include the purpose, time and amount of the obligation.3
Appropriations may be used only for the purpose(s) for which they
were made and, must be obligated by the agency within their
period of obligational availability; further the amount of grant
funds must meet earmark or other controlling provisions in the
applicable program statute. In addition, Federal government
activities must be for a bona fide need. USAID/G-CAP’s
cooperative agreement to CCAA met all of these requirements.

First, the general purposes of the agreement fall under the intended
purposes of the Foreign Operations, Export Financing and Related
Programs Appropriation Act for Development Assistance funds,
which includes the promotion of economic growth by
strengthening the private sector. Therefore, the cooperative
agreement meets the purpose test.




3
GAO’s Principles of Federal Appropriation Law, Chapter 10.


                                                                 10
Second, the cooperative agreement also met the time test. The
funds in question are fiscal year 2004 Development Assistance
funds and were obligated on September 30, 2004, within their
period of obligational availability. Moreover, the scope of work
for the agreement is two years, which is less than the 5-year
maximum provided under the Appropriations Act.

Third, the cooperative agreement also met the amount test. Under
this test, the amount of grant funds must meet earmark or other
controlling provisions in the applicable program statute. The funds
obligated by USAID/G-CAP under this agreement were funds
provided by USAID’s Global Development Alliance (GDA)
Secretariat and were reported under the GDA program to Congress
in Congressional Notification #232, dated July 13, 2004.
Providing Congress with programmatic and funding details for the
Development Assistance-funded GDA Incentive Fund, the
Notification reported the obligated $300,000 to be within
applicable earmark appropriation provisions for the program.
Therefore, the agreement and its obligated funds meet the
standards for the amount test.

Finally, the cooperative agreement met the bona fide needs rule,
which applies to all Federal government activities carried out with
appropriated funds, not just contracts, but also grants and
cooperative agreements.         GAO’s Principles of Federal
Appropriation Law, Chapter 5, states that a bona fide needs
analysis in the grant and cooperative agreement context focuses on
whether the grant was made during the period of availability of the
appropriation charged and furthers the authorized purpose of
program legislation. Since the funds for the subject cooperative
agreement were obligated during the period of availability (on
September 30, 2004) for an authorized purpose of the program
legislation (economic growth by strengthening the private sector),
it met the bona fide needs test by satisfying USAID’s “need” to
provide recipients with financial assistance through the awarding
of grants and cooperative agreements.

In consideration of the above, we conclude that USAID/G-CAP’s
cooperative agreement to CCAA did comply with selected Federal
Appropriations Law as it applies to awarding cooperative
agreements and obligating appropriated funds.




                                                                11
Did    USAID/Guatemala-Central     American      Programs’
cooperative agreement with Caribbean-Central American
Action comply with Federal and USAID lobbying restrictions?

USAID/G-CAP’s cooperative agreement with Caribbean-Central
American Action did not fully comply with Federal and USAID
lobbying restrictions. Although the actual agreement complied,
language in a document used under the agreement conflicted with
lobbying restrictions. This issue is discussed below.

Language Does Not Comply
With Lobbying Restrictions

USAID uses standard provisions in its agreements with U.S.
nongovernmental recipients.          The cooperative agreement
USAID/G-CAP has with CCAA references the provisions found in
22 CFR 226, which incorporate the cost principles in OMB
Circular A-122.        Circular A-122 establishes principles for
determining the allowable costs that can be charged to the Federal
government by non-profit organizations, such as CCAA. The
principles are designed to provide that the Federal Government
bear its fair share of costs except where restricted or prohibited by
law. The principles are to be used by all Federal agencies in
determining the costs of work performed by non-profit
organizations under cooperative agreements.

The cost principles in Circular A-122 state that lobbying costs are
unallowable. Specifically, this refers to any attempt to influence
the enactment or modification of any pending Federal legislation
through communication with any member or employee of the
Congress, or with any Government official or employee in
connection with a decision to sign or veto enrolled legislation.
Also unallowable is any attempt to influence the enactment or
modification of any pending Federal legislation by preparing,
distributing or using publicity or propaganda, or by urging
members of the general public or any segment thereof to contribute
to or participate in any mass demonstration, march, rally, fund
raising drive, lobbying campaign or letter writing or telephone
campaign.

While the cooperative agreement does not explicitly mention
lobbying, in the program description, under the category of
Leadership activities, it does mention that CCAA will “[w]ork with
respected individuals from the business community and civil
society in each country to create a broad-based regional network
that, by signing the Declaration of Principles (the Declaration),



                                                                  12
publicly commit time and resources to driving forward the
successful implementation of CAFTA…” Leaders signing this
document are declaring that they urge the timely ratification and
implementation of CAFTA.

Moreover, these leaders are also declaring that “[w]e ask our
“business partners (investors, employees, customers, suppliers,
head offices, etc.), friends (NGOs, donors, etc.) and families in the
United States to support our efforts to ratify and implement
CAFTA…” [emphasis added]. In our opinion, by asking business
partners, friends and families in the U.S. to support efforts to ratify
CAFTA—which has not yet been ratified by the U.S. Congress—
this declaration is attempting to influence the enactment of
CAFTA by the United States and is a violation of the cost
principles contained in OMB Circular A-122.

Subsequent to our contact with USAID/G-CAP, the Mission
reported that the Declaration had been clarified. This clarification
consisted of eliminating the reference to the United States.
However, the Declaration still called for business partners, friends
and families to support efforts to ratify CAFTA. Although, this
action was no longer targeted at the United States, calls for
supportive efforts to ratify CAFTA in the U.S. were not excluded.
When we brought this to the attention of USAID/G-CAP, the
Mission replied that the intent of the Declaration was always meant
to engage business leaders and civil society sector leaders to
“lobby” in their own country for the ratification of CAFTA. The
Declaration was then revised again by deleting any reference to
ratification and explicating focusing on implementation in Central
America.

We are making the following recommendation to ensure that
leaders signing the Declaration use the most recent version which
omits any reference to either the ratification of CAFTA or to the
United States.

Recommendation No. 1:             We recommend that the
USAID/Guatemala-Central American Programs require that
Caribbean-Central American Action use the most recent
version of the Declaration of Principles which omits any
reference to either the ratification of CAFTA or the United
States.




                                                                    13
Management
Comments     USAID/Guatemala-Central American Programs (USAID/G-CAP)
             concurred with our recommendation and described actions taken to
and our
             remove all references to “involving U.S. friends” or “asking for
Evaluation   help in the ratification of CAFTA” from the body of the
             Declaration of Principles that the Caribbean-Central American
             Action (CCAA) Alliance members signed as part of their
             commitment. CCAA will request all new CCAA Alliance
             members to sign the revised version of the Declaration of
             Principles. Moreover, the mission states that CCAA will send a
             Clarification Letter to all Alliance members that signed the original
             Declaration stating that the Alliance program supports activities
             exclusively in the Central American Region and that the program
             supports activities to implement CAFTA rather than to ratify
             CAFTA. USAID/G-CAP plans to add a monitoring clause to
             CCAA’s Monitoring and Evaluation Plan and the cognizant
             technical officer will monitor any and all information being
             released to the public. We believe the actions taken and on-going
             monitoring plans adequately address our concerns.




                                                                               14
                                                                     Appendix I

Scope and     Scope
Methodology
              The Performance Audit Division conducted this audit in
              accordance with generally accepted government auditing
              standards.      We conducted the audit field work at
              USAID/Washington from November 24, 2004 to January 25, 2005.
              For documentation regarding the cooperative agreement and its
              associated activities, we contacted program officials at
              USAID/Washington and USAID/Guatemala-Central American
              Programs (USAID/G-CAP). The scope of the audit was limited to
              activities conducted since the awarding of the agreement, as well
              as proposed activities.

              The scope of the audit included an examination of the internal
              controls associated with the awarding and managing of the
              cooperative agreement with Caribbean-Central American Action
              (CCAA). We found no relevant audit findings affecting the areas
              reviewed.

              Methodology

              In order to gain an understanding of USAID/G-CAP’s cooperative
              agreement     with    CCAA,      we   held  discussions  with
              USAID/Washington officials and USAID/G-CAP officials.

              We performed the following:

              •   Reviewed relevant laws, regulations, guidance, and procedures
                  to gain an understanding of the compliance issues relating to
                  Section 533 restrictions, obligating appropriated funds, and
                  restrictions on lobbying.
              •   Interviewed program officials and evaluated the internal
                  control systems for ensuring compliance with Section 533
                  restrictions, obligating appropriated funds, and lobbying
                  restrictions.
              •   Examined the cooperative agreement, as well as the recipient’s
                  annual plan and monitoring and evaluation plan. We also
                  examined other related documents used by the recipient under
                  the cooperative agreement.

              To answer the audit objectives, we set no materiality threshold
              because such a threshold was not relevant to any of the objectives.




                                                                              15
[This page intentionally left blank.]




                                        16
                                                                                    Appendix II


Management
Comments                                     United States Government
                                                   MEMORANDUM

Date:           February 4, 2005

To:             Nathan Lokos, IG/A/PA

From:           Carrie Thompson, Acting Mission Director /s/

Subject:        Review and Comment on Audit Report No. 9-596-05-00X-P on USAID/G-CAP
                Program’s Cooperative Agreement with Caribbean-Central American Action
                (Cooperative Agreement No. 596-A-00-04-00235-00)


This memorandum acknowledges receipt of the Draft Audit Report cited above. USAID/G-CAP
has reviewed and agrees with the recommendation therein. As part of the record, USAID/G-CAP
requests that the final Audit Report include the actions described below, which USAID/G-CAP
will continue to monitor for the duration of the Cooperative Agreement with Caribbean-Central
America Action (CCAA).

The actions are as follows:

      1)    CCAA has removed all references to “involving U.S. friends” or “asking for help in
            the ratification of CAFTA” from the body of the Declaration of Principles (DOP) that
            CCAA Alliance members sign as part of their commitment. CCAA will request all
            new CCAA Alliance members to sign the revised version of the DOP.
            Status: Complete

      2)    CCAA will send a Clarification Letter to all Alliance members who signed the
            original DOP stating that the Alliance program supports activities exclusively in the
            Central American Region and that the program supports activities to implement
            CAFTA rather than to ratify CAFTA.
            Status: February 15, 2005

      3)    USAID/G-CAP will add an On-going Monitoring Clause to CCAA’s Monitoring &
            Evaluation Plan to follow up on any and all information being released to the public.
            The cognizant technical officer will be responsible for monitoring any and all
            information being released to the public.
            Status: On-going for the duration of the Cooperative Agreement.

We thank you for your responsiveness and cooperation. If you have any further questions, do not
hesitate to contact USAID/G-CAP.




                                                                                                17
